<html>
<title> - MEMBER DAY HEARING</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                  COMMITTEE ON SMALL BUSINESS: 2021 MEMBER 
                               DAY HEARING

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                             JUNE 29, 2021

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                               

            Small Business Committee Document Number 117-022
             Available via the GPO Website: www.govinfo.gov
             
                                __________

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-924                        WASHINGTON : 2021                     
            
-----------------------------------------------------------------------------------               
            
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                          JARED GOLDEN, Maine
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                         KWEISI MFUME, Maryland
                        DEAN PHILLIPS, Minnesota
                         MARIE NEWMAN, Illinois
                       CAROLYN BOURDEAUX, Georgia
                         TROY CARTER, Louisiana
                          JUDY CHU, California
                       DWIGHT EVANS, Pennsylvania
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                          ANDY KIM, New Jersey
                         ANGIE CRAIG, Minnesota
              BLAINE LUETKEMEYER, Missouri, Ranking Member
                         ROGER WILLIAMS, Texas
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        DAN MEUSER, Pennsylvania
                        CLAUDIA TENNEY, New York
                       ANDREW GARBARINO, New York
                         YOUNG KIM, California
                         BETH VAN DUYNE, Texas
                         BYRON DONALDS, Florida
                         MARIA SALAZAR, Florida
                      SCOTT FITZGERALD, Wisconsin

                 Melissa Jung, Majority Staff Director
            Ellen Harrington, Majority Deputy Staff Director
                     David Planning, Staff Director
                            
                            
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Nydia Velazquez.............................................     1
Hon. Blaine Luetkemeyer..........................................     2

                               WITNESSES

Hon. Earl Blumenauer, United States House of Representatives, 
  Washington, DC.................................................     3
Hon. Ed Case, United States House of Representatives, Washington, 
  DC.............................................................     5

                                APPENDIX

Prepared Statements:
    Hon. Earl Blumenauer, United States House of Representatives, 
      Washington, DC.............................................     8
    Hon. Ed Case, United States House of Representatives, 
      Washington, DC.............................................    10
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    Statement of Hon. Glenn "GT" Thompson........................    13
    Statement of Hon. Linda T. Sanchez...........................    15

 
                           MEMBER DAY HEARING

                              ----------                              


                         TUESDAY, JUNE 29, 2021

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:00 a.m., in Room 
2360, Rayburn House Office Building, Hon. Nydia Velazquez 
[chairwoman of the Committee] presiding.
    Present: Representatives Velazquez, Newman, Carter, 
Delgado, Andy Kim of New Jersey, Luetkemeyer, Williams, and 
Donalds.
    Also Present: Representatives Blumenauer, and Case.
    Chairwoman VELAZQUEZ. Good morning. I call this hearing to 
order.
    Without objection, the Chair is authorized to declare a 
recess at any time.
    I thank everyone for joining us this morning and I want to 
especially thank my colleagues for joining us today for the 
House Committee on Small Business Member Day Hearing.
    Let me begin by saying that standing House and Committee 
rules and practice will continue to apply during hybrid 
proceedings. All Members are reminded that they are expected to 
adhere to these standing rules including decorum.
    House regulations require Members to be visible through a 
video connection throughout the proceeding, so please keep your 
cameras on. If you participate in another proceeding, please 
exit this one and log back in later.
    In the event a Member encounters technical issues that 
prevent them from being recognized for their questioning, I 
will move to the next available Member of the same party and I 
will recognize that Member at the next appropriate time slot 
provided they have returned to the proceeding.
    For those Members and staff physically present in the 
Committee room today, we will continue to follow the most 
recent OAP guidance. Masks are no longer required in our 
meeting space for Members and staff who have been fully 
vaccinated. All Members and staff who have not been fully 
vaccinated are still required to wear masks and socially 
distance. I sincerely hope we all do our part to protect each 
other and our staff.
    Today is a chance for the Committee to hear directly from 
our fellow Members of Congress about their priorities for 
supporting programs and policies that promote small business 
creation and growth. Last year was a pivotal moment across our 
country that we all experienced and still are because the 
pandemic is not over. Our nation's entrepreneurs closed more 
doors in 2020 than in any other year on record, but Congress 
was able to save many due to bipartisan work by this Committee 
to provide over $1 trillion in relief. It is easy to focus on 
the problems and frustrations we have all experienced, but I 
want to remind everyone today about all the good we have 
accomplished for main street nonprofits and families. That $1 
trillion funding was more aid in 1 year for struggling 
entrepreneurs than in any other year on record and the SBA rose 
to the occasion in distributing it.
    Every Member in Congress has a small business in their 
district that has been impacted by our work, both COVID and 
non-COVID related. I know that when we travel back to our 
districts, we are eager to hear from our local small business 
owners to understand what policies are working for them and 
what we can improve on.
    For the Members testifying here today, I know that you have 
been gathering feedback from main street businesses in your 
district and I am eager to hear more throughout this hearing.
    Besides our work on relief programs, this Committee's 
mission is to open the lucrative federal marketplace to 
entrepreneurs, strengthen capital markets for all small 
employers, and give small firms the tools they need to take 
care of their employees and build their companies.
    We do so while working together. Our Committee has a long 
history of bipartisanship because we all agree that small 
businesses truly are the backbone of our economy at the end of 
the day. They are what unifies us in our work and they hold our 
communities together. We saw that firsthand last year. Today, 
we have the chance to engage in an open dialogue on how we can 
collaborate to support small firms.
    Thank you to all the Members for being with us today. I 
look forward to our discussion and to working with you to 
foster an environment that promotes entrepreneurship and job 
creation in communities across the country.
    I would now like to yield to the Ranking Member, Mr. 
Luetkemeyer, for his opening statement.
    Mr. LUETKEMEYER. Thank you, Madam Chair, for holding this 
member hearing today and to the gentlemen who are with us this 
morning, the members.
    Throughout this Congress, members have heard from numerous 
constituent small business owners and job creators in a 
prioritized legislation to support the small business recovery. 
I am proud of the work this Committee has been able to achieve 
on a bipartisan basis such as the Paycheck Protection Program 
Extension Act, and I look forward to continuing our work 
together to empower small businesses and Main Street America in 
the recovery.
    COVID-19 devastated small businesses, and through no fault 
of their own, many were forced to close their doors due to 
overreaching state and local shutdown measures and altered 
capacity restrictions. As a response, Congress created numerous 
small business relief programs to provide much needed 
assistance to Main Street USA.
    Many of these programs, like the Paycheck Protection 
Program, have successfully assisted millions of small 
businesses providing billions of dollars in assistance. As 
small businesses continue to recover, we must ensure they 
return to operating independently. Prior to the pandemic, small 
businesses were reporting historic levels of optimism and 
confidence that resulted from President Trump's pro-growth 
policies of a low tax environment combined with efficient and 
pragmatic regulations.
    It remains clear that Congress has a lot of work ahead of 
it when it comes to the small business economy. Small 
businesses are currently facing labor shortages, rising cost of 
goods, inflation, and fears of increased taxes and burdensome 
government mandates. From ensuring that the smallest firms can 
employ workers, to providing necessary agency oversight to 
protect taxpayer dollars, I know we will be busy in the months 
and years ahead.
    Thank you to the members who have joined us today. I look 
forward to our continued work to ensure our Nation's small 
business environment which is rich in opportunities for growth.
    Thank you, Madam Chair, and I yield back.
    Chairwoman VELAZQUEZ. Thank you, Mr. Luetkemeyer. The 
gentleman yields back.
    I would like to take a moment to explain how this hearing 
will proceed. You will have 5 minutes to provide a statement 
and each Committee Member will have 5 minutes for questions. 
Please ensure that your microphone is on when you begin 
speaking and that you return to mute when finished.
    I will begin by introducing our panel before we move to 
testimony.
    With that, I would like to introduce our first witness, 
Congressman Earl Blumenauer, who represents the 3rd District of 
Oregon. Congressman Blumenauer is a tireless advocate for 
Portland and its surrounding communities. He is known in the 
halls of the Capitol as a consensus builder and that is evident 
from his work on the Restaurant Revitalization Program, a 
critical relief program that has helped thousands of restaurant 
owners keep their doors open. Thank you for your hard work and 
I welcome you, sir. You have 5 minutes.

   STATEMENT OF HON. EARL BLUMENAUER, UNITED STATES HOUSE OF 
                REPRESENTATIVES, WASHINGTON, DC

    Mr. BLUMENAUER. Thank you very much, Madam Chair. I deeply 
appreciate the opportunity to be with you here today.
    Small businesses in my community and across the country 
have been saved because of the work that you and this Committee 
have done. Congress, and indeed the country, owes you a debt of 
gratitude. But you know well that the work is far from over.
    As primary author of the RESTAURANTS Act, we generated 
legislation to deal with the fact that the PPP, which made such 
a difference for so many was ill-suited for restaurants, who 
did not even know if they were going to be open in 8 weeks and 
certainly did not need to pile on more debt under these 
circumstances.
    As primary author of the Restaurants Act, I created the 
Small Business Administration's Restaurant Revitalization Fund. 
I am testifying before you today about the urgent need to 
replenish the Restaurant Revitalization Fund to allow all 
eligible applicants to receive relief.
    It was clear from the beginning of the pandemic that 
restaurants, bars, caterers, would be some of the hardest hit 
businesses of any sector. In April of 2020, 5.5 million 
restaurant workers lost their jobs, accounting for more than a 
quarter of the total job losses for the month. Indoor dining 
restrictions, limited capacity, and the public's personal 
health concern further prolonged the restaurants' challenges. 
It was estimated that we could see 80 or 85 percent of 
restaurants go out of business permanently without Federal 
assistance.
    I introduced the RESTAURANTS Act in June 2020 and worked 
with both Republican and Democratic colleagues to build a 
coalition of support for the $120 billion Restaurant 
Revitalization Fund contained in the legislation. An 
independent analysis found that the fund would generate more 
than a 2-to-1 return on the investment and bring back millions 
of lost jobs.
    The Restaurant Revitalization Fund was finally enacted as 
part of the American Rescue Plan and it provided $28.6 billion 
for restaurants, bars, and caterers. The Small Business 
Administration opened the Restaurant Revitalization Fund on May 
3rd and received an unprecedented level of applications from 
small restaurants, bars, and caterers. Within days, the 
Restaurant Revitalization Fund had received more than 362,000 
applications with a total of $75 billion in funding requested, 
nearly triple the available funding.
    The Small Business Administration was forced to close the 
program to new applicants on May 24th, citing insufficient 
funding from Congress. Essentially, it was done in a matter of 
days. While approximately 100,000 restaurants, bars, and 
caterers have received $27.5 billion in funding, there are 
hundreds of thousands of restaurants and millions of employees 
whose future hinges on this Committee's ability to replenish 
the fund.
    I have introduced bipartisan, bicameral legislation to 
replenish it with $60 billion in additional aid, enough to 
cover all outstanding applications and allow the Small Business 
Administration to continue its outreach to hard-to-reach 
communities.
    In fewer than 2 weeks, the legislation has already garnered 
160 bipartisan cosponsors. It has broad support from every link 
in the trillion dollar restaurant supply chain. There is 
nothing more central to our communities, large and small, than 
their local restaurants. From first-time jobholders to 
classically trained chefs, restaurants support an array of 
workers at every stage of their career. They are integral to 
each of our congressional districts and they are still hurting. 
One or 2 good months is not going to make up for more than a 
year of losses or protect those jobs. It is critical that this 
Committee quickly come together to replenish the Restaurant 
Revitalization Fund. Without it, many of our beloved 
institutions will be lost forever.
    Thank you for your courtesy and permitting me to make that 
case, and I look forward to working with you as we build upon 
your prior success.
    Chairwoman VELAZQUEZ. Thank you. Thank you for taking time 
and thank you for all the great work that you have done to 
assist and provide relief to small businesses in our country.
    Now, I would like to introduce our second witness, 
Congressman Ed Case, who proudly represents Hawaii's 1st 
Congressional District. Mr. Case was born and raised in Hilo. 
His great-grandparents on his father's side immigrated to 
Hawaii in 1896 from Kansas, and his family has lived on many of 
the state's islands over the generations since. Before joining 
Congress, Mr. Case spent 2 decades at the Honolulu law firm of 
Carlsmith Ball, where he rose to managing partner. Congressman 
Case serves on the Appropriations Committee and I am also proud 
to serve with him on the Natural Resource Committee. Welcome, 
Congressman case.

       STATEMENT OF HON. ED CASE, UNITED STATES HOUSE OF 
                REPRESENTATIVES, WASHINGTON, DC

    Mr. CASE. Thank you so much, Chair Velazquez, Ranking 
Member Luetkemeyer, and members of the Committee. Thank you for 
that kind introduction. And I am also a proud former member of 
this Committee during my prior service in Congress. I have 
always enjoyed that privilege.
    Thank you for the opportunity to share my thoughts with the 
Committee on two critical issues: 1) Of course, the continuing 
impact of COVID-19 on Hawaii small businesses, and (2) The need 
to ensure our small businesses are fully included in our 
Nation's recovery, especially in government contracting areas.
    Because Hawaii's large industry is tourism and hospitality, 
our economy and small businesses have been especially hard hit 
by COVID-19 related stay-at-home orders and travel 
restrictions. Hawaii's unemployment rate was one of the lowest 
in the Nation at 2.6 percent before COVID-19. It quickly peaked 
at 23.5 percent during the height of the pandemic and today 
Hawaii's employment remains the highest in the Nation at 8.1 
percent.
    This economic crisis has had a profound impact on our small 
businesses which are the lifeblood of my state. Prior to COVID-
19, Hawaii had about 136,000 small businesses, roughly 1 
business for every 10 people. Although it is difficult to 
pinpoint the exact number of small businesses we lost due to 
the pandemic, it has been estimated that well over 1,000 
businesses in Hawaii permanently closed during the pandemic. 
Sadly, this includes Hawaii's institutions with long roots in 
the community like Love's Bakery, Like Like Drive Inn and many 
more. This impact would have been significantly worse if it was 
not for the decisive action of this Committee. Your hard work 
and ingenious work to create new programs like the Paycheck 
Protection Program provided a lifeline for thousands of 
businesses in Hawaii. I also want to commend the Committee for 
remembering our immigrant and underbanked communities in 
ensuring they are not being left behind. This has been critical 
in Hawaii, a state with unmatched ethnic diversity.
    However, segments of small business in Hawaii and 
throughout our country were not effectively targeted and still 
desperately need additional assistance. These include our 
restaurants and live event operators who despite rounds of 
Paycheck Protection Program and Economic Injury Disaster Loan 
Program assistance need additional funding from the Restaurant 
Revitalization Fund and increased access to the Shuttered Venue 
Operator's Grant Program. The nearly $80 billion requested by 
restaurants from the $28.6 billion Restaurant Revitalization 
Fund shows the desperate need of an industry struggling to 
recover. Because Hawaii small businesses are some of the most 
diverse in the Nation with the majority being minority-owned 
businesses, many were approved for Restaurant Revitalization 
Fund assistance only to have that funding precipitously halted 
by the current court action. We should honor our commitment to 
these small businesses and look to pass my colleague, 
Congressman Blumenauer's Restaurant Revitalization Fund 
Replenishment Act of which I am a co-sponsor.
    I have also spoken to many small business owners in the 
hospitality and live event industry that were left out of the 
Shuttered Venue Operator Grant Program. While I understand that 
there are some challenges in defining this industry, that 
should be eminently surmountable. If we continue to leave out 
those that support the live entertainment industry such as 
audiovisual rentals, specialty entertainment services, wedding 
operators and more, we will neglect a critical component of the 
hospitality sector.
    Lastly, as we work towards a comprehensive infrastructure 
package, Congress must ensure that our small businesses are 
fully included in this once in a generation investment. In 
particular, we must ensure that small business contractors, 
including Super 8(a)s 8(a)s, HUBZone, women- and veteran-owned 
businesses have meaningful and enforceable set-asides. This 
will require this Committee's continued oversight and focus but 
it is a critical component to helping small businesses and all 
of our districts truly recover from the COVID-19 pandemic.
    In closing, thank you so much for your leadership and work 
in helping to provide relief to our Nation's small businesses 
that are still struggling to survive the unprecedented 
disruption of COVID-19. Without your decisive action over the 
past year and a half, many more small businesses would have 
shut their doors.
    I look forward to continuing to work with you on behalf of 
our Nation's small businesses as we continue to transition from 
basic survival to recovery. Mahalo.
    Chairwoman VELAZQUEZ. Thank you, Congressman Case for 
everything that you have shared with us and for taking time out 
of your busy schedule to be here advocating on behalf of small 
businesses. This Committee will continue to work with you in 
addressing the issues that we are still facing, especially 
during the recovery and rebuilding after the pandemic. We 
appreciate the work that you have done and your advocacy on 
behalf of small businesses.
    Mr. CASE. Thank you.
    Chairwoman VELAZQUEZ. Now I would like to ask if any other 
Member would like to be recognized from the Committee.
    If not, if there are no other comments, I would like to 
conclude this hearing by once again thanking my colleagues for 
being here today. I can hear the passion and enthusiasm in your 
voice when you talk about ways to strengthen our nation's small 
businesses. Many of the issues you talk about are at the heart 
of what this Committee will be working on for the rest of the 
117th Congress. We will also be giving a voice to small 
businesses and making sure that they are represented as we 
advance important initiatives like infrastructure. I encourage 
you to work with my staff and our Republican colleagues because 
working on behalf of small businesses is a bipartisan issue.
    I will also ask unanimous consent that Members have 5 
legislative days to submit statements and supporting materials 
for the record.
    Without objection, so ordered.
    If there is no further business to come before the 
Committee, we are adjourned. Thank you.
    [Whereupon, at 10:18 a.m., the Committee was adjourned.]
                           
                           
                           A P P E N D I X

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
